July 28, 2003

W. C. MINER
MANAGER, BALTIMORE DISTRICT

SUBJECT:        Audit Report – City Carrier Productivity – Letter Carrier Delays in the
                Baltimore District (Report Number TD-AR-03-011)

                                        Background
On November 19, 2001, the Office of Inspector General (OIG) announced an audit of
carrier productivity to determine whether letter carrier operations were effective, and to
identify opportunities for cost savings (Project Number 02YG003TD001). The audit
responded to a request from the postmaster general. This interim audit report is part of
a series of reports.




             Letter carriers delivering mail to cluster boxes in Baltimore, Maryland.

                        Objective, Scope, and Methodology
The purpose of this report is to notify Postal Service officials of letter carrier delays we
observed in the Baltimore District. During our work we interviewed Postal Service
officials; visited seven delivery units; interviewed employees and managers; observed
and photographed letter carrier operations; examined relevant data, including data from
the Delivery Operations Information System; and analyzed applicable Postal Service
policies and procedures. Work associated with this report was conducted from
February through July 2003, in accordance with generally accepted government




                                      Restricted Information
City Carrier Productivity – Letter Carrier Delays                                             TD-AR-03-011
 in the Baltimore District


auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations
with appropriate management officials, and included their comments, where
appropriate.

                                      Prior Report Coverage
Our report, Delayed Letter Carrier Operations in the Capital Metro Area (Report
Number TD-MA-02-005, dated August 29, 2002), revealed that letter carriers in
Northern Virginia and Baltimore, who were prepared to begin their delivery routes, were
substantially delayed while waiting for “missent” mail, which processing and distribution
centers had distributed to the wrong post office. Our analysis of Capital Metro Area
records indicated that the cost of making carriers wait for missent mail may have
included unnecessary overtime. We made two recommendations to address the issues
we identified. Management’s comments were responsive to our recommendations.

                                                    Results

Letter Carrier Delays

Letter carriers we observed during morning visits to various Baltimore post offices were
delayed because mail they were scheduled to deliver was not yet available to them.
Everyday, Postal Service processing and distribution centers distribute mail to local




Everyday, processing and distribution
 centers distribute mail to local post              Letter carrier at a sorting case. Postal Service policy
   offices, where clerks sort it, then              requires that carrier schedules coincide with receipt
   distribute it to letter carriers who              of mail, and specifies that 80 percent of a carrier’s
further sort or “case” it in preparation            mail should be at the carrier’s case when the carrier
              for delivery.                                             reports for work.




                                                        2
                                             Restricted Information
City Carrier Productivity – Letter Carrier Delays                                   TD-AR-03-011
 in the Baltimore District


post offices where clerks sort it, and then distribute it to letter carriers who further sort or
“case” it, in preparation for delivery. Postal Service Handbook, M-39, Management of
Delivery Services, dated March 1, 1998, requires carrier schedules to coincide with
receipt of mail, and specifies that 80 percent of the carrier’s mail should be at
the carrier’s case when the carrier reports for work. However, during visits to
seven Baltimore District delivery units where carriers reported at 7:00 a.m., we noted
that 80 percent of the unit’s mail was not consistently distributed by clerks to the
carrier’s case and available to carriers before the carriers reported for work. Instead,
we noted a daily range from 7 to 52 percent of mail was not available when carriers
reported. Since carriers reported at 7:00 a.m. and mail did not arrive until later, we
observed carriers “slowing down,” “pacing” themselves, or reading magazines while
waiting. Our examination revealed that this occurred because management changed
carrier reporting times from 8:00 a.m. to 7:00 a.m. without coordinating with processing
and distribution centers regarding mail dispatch and arrival schedules. Local
supervisors explained that this was done because the Baltimore postmaster wanted
carriers to complete work before dark or before 5:00 p.m. and verbally instructed local
supervisors to make the change. The Baltimore postmaster acknowledged the verbal
instructions, but stipulated that the guidance was not a directive and should only be
applied as assessed locally. We noted that early reporting wasted carrier’s morning
time, and exposed the Baltimore District to potential unnecessary evening overtime
costs. Finally we noted supervisors were not using the Delivery Operations Information
System to manage carrier schedules, and consequently, could not use the system to
evaluate carrier scheduling or take corrective action.

During our work, and after our discussions with district officials and local supervisors,
officials told us that they were in the process of gathering and evaluating carrier
schedules. In addition, supervisors told us that the district issued guidance to change
7:00 a.m. carrier report times to 7:30 a.m. effective March 8, 2003.

Recommendation

We recommend the manager, Baltimore District:

    1. Coordinate with processing and distribution centers, consider planned dispatch
       and arrival times, and schedule carrier reporting times to coincide with mail flow.

Management’s Comments

Management agreed with the recommendation. They stated that issues related to the
recommendation were currently being discussed in weekly meetings between the
Baltimore plant manager, the Baltimore postmaster, and Baltimore Customer Service
managers; a meeting would be held with plant managers; postmasters would review
routes and carrier starting times; and corrections would be made to coordinate mail
arrival with carrier reporting time to ensure 80 percent of mail arrived prior to the time




                                                        3
                                             Restricted Information
City Carrier Productivity – Letter Carrier Delays                               TD-AR-03-011
 in the Baltimore District


carriers reported. Management’s comments, in their entirety, are included in the
appendix of this report.

Recommendation

We recommend the manager, Baltimore District:

    2. Ensure the Delivery Operations Information System is used to manage carrier
       operations, or document why the system is not effective for that purpose.

Management’s Comments

Management agreed with the recommendation. They stated that headquarters provided
Delivery Operations Information System training on May 27, 2003; that all managers
and delivery supervisors would receive follow-up training within 90 days; and that the
Baltimore cluster understood the Delivery Operations Information System was a viable
tool in scheduling carrier hours.

Additional Management’s Comments

In his management response dated June 9, 2003, the Baltimore District manager
thanked the OIG for helping Baltimore delivery units run successful operations. He also
requested an exit conference.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2. We consider
the actions taken and planned sufficient to address the issues identified in this report.
The exit conference requested by the Baltimore District manager was held July 15,
2003. As a result of discussions held during that conference, we made minor
corrections to the text of this report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                                        4
                                             Restricted Information
City Carrier Productivity – Letter Carrier Delays                           TD-AR-03-011
 in the Baltimore District


We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at 703-248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    Henry A. Pankey
    Michael F. Spates
    Jerry D. Lane
    Susan M. Duchek




                                                        5
                                             Restricted Information
City Carrier Productivity – Letter Carrier Delays                     TD-AR-03-011
 in the Baltimore District


                      APPENDIX. MANAGEMENT’S COMMENTS




                                                        6
                                             Restricted Information
City Carrier Productivity – Letter Carrier Delays                     TD-AR-03-011
 in the Baltimore District




                                                        7
                                             Restricted Information
